Record Press Inc., 229 West 36th Street, New York, N.Y. (0018°
Tel: (212) GIS-4949° Fax No. (212) 608-3141

STATE OF NEW YORK, )
SS: 80005 AFFIDAVIT OF SERVICE
COUNTY OF NEW YORK )

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years of age.

That on the 1th day of December 2020 deponent served 3 copies of the within
BRIEF IN OPPOSITION
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Jeffrey B. Wall

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, District of Columbia 20530
(202) 14-2217

Attorneys for Petitioner

|, Howard Daniels, declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct, executed on December 16, 2020, pursuant ta Supreme Court Rule 29.5(c). All parties required to be served, have been

“ Arurnerel Qrceedo:

Howard Daniels
Sworn to me this
December 16, 2020

Alessandra Kane

Notary Public, State of New York
No. OIKAB340571 Case Name: Barr v. Esteban Aleman Gonzalez

Qualified in Richmond County
Commission Expires April 18, 2024 Docket/Case No. 20-322

( Public G
